No.

 

 

INTHE

Supreme Court of the United States

MERIT MEDICAL SYSTEMS, INC.,
Cross-Petitioner,
Vv.
NAZIR KHAN, IFTIKHAR KHAN,

Cross-Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

RULE 33.1(h) WORD COUNT CERTIFICATE
FOR CROSS-PETITION FOR A WRIT OF
CERTIORARI

 

As required by Supreme Court Rule 33.1(h), I hereby certify that according to
the word-processing software used to prepare it, the accompanying Cross-Petition
for a Writ of Certiorari contains 7,911 words (excluding the parts of the document
exempted by Supreme Court Rule 33.1(d)) and therefore complies with the word-
count limitation of Supreme Court Rule 33.1(g)(i).

Executed on March 23, 2021.

| Dui Kd
DAVID R. TODD
Counsel of Record for
Merit Medical Systems, Inc.
